              United States Department of State
            and the Broadcasting Board of Governors
                    Office of Inspector General




                      Survey of the
            Broadcasting Board of Governors’
                Middle East Broadcasting
                Activities and Initiatives

           Report Number IBO-A-02-02, March 2002




This report has been decontrolled for release under the Freedom of Information Act.
                                                          UNCLASSIFIED




                                       TABLE OF CONTENTS

       EXECUTIVE SUMMARY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
       RESULTS IN BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
       PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
       FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
             Objective 1.
             Evaluation of the Proposed Structure of MERN and Its Place,
             Organizationally . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
             Objective 2.
             How Has BBG—As Currently Constituted—Responded to and
             Supported U.S. Foreign Policy Priorities in the Middle East? . . . . . . . . . . 16
       CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
       ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
       APPENDICES
            A. Letter from Senator Helms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1
            B. Officials and Key Staff Interviewed for this Report . . . . . . . . . . . . . . B-1
            C. Demographics of the Middle East . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1
            D. Planned MERN Transmission Sites and Delivery Systems . . . . . . . . . D-1
            E. Project Schedule from FY 2003 MERN Performance Plan . . . . . . . . E-1
            F. Surge Response to Terrorist Attacks . . . . . . . . . . . . . . . . . . . . . . . . . . . F-1
            G. Regular Listening to VOA, BBC, RMC . . . . . . . . . . . . . . . . . . . . . . . . G-1
            H. Agency Comments by the Broadcasting Board of Governors . . . . . . H-1
            I. Agency Comments by the Department of State . . . . . . . . . . . . . . . . . . . I-1




24 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002

                                                             UNCLASSIFIED
                                         UNCLASSIFIED




                               EXECUTIVE SUMMARY


By letter dated January 16, 2002, Senator Jesse Helms, the ranking member of the
Senate Foreign Relations Committee, asked the Office of Inspector General (OIG)
of the Department of State (Department) and the Broadcasting Board of Gover-
nors (BBG) to review the BBG’s broadcast activities in the Middle East to date. He
also asked OIG to evaluate the BBG’s plans for a new initiative to broadcast to the
Middle East by radio, the Middle East Radio Network (MERN). (See Appendix A.)

   MERN is designed to provide an alternative to the media in the region, which is
generally reflective of local government policy and hostile to the policies, viewpoints,
and interests of the United States. MERN is intended to be a credible source of
news and information about both the countries in the region and the United States.

      Specifically, OIG was asked to determine whether:

“(1) U.S. positions will be best presented through strong existing foreign commercial
radio and television outlets in the Middle East media ‘marketplace;’

“(2) BBG is capable of managing a project related to such sensitive U.S. policy
interests without a far more careful review by the State Department and/or White
House supervisory role;

“(3) the VOA [Voice of America] can effectively serve as the institutional home for a
network melding both surrogate broadcasting and broadcasting about America;

“(4) . . . a network [can] remain consistent with U.S. interests if its personnel are
resident nationals in Middle Eastern and other Muslim countries; and

“(5) . . . editorial control [can] be realistically implemented from Washington”

    Additionally, OIG was asked to review how “the BBG—as currently consti-
tuted—has responded to, and supported, U.S. foreign policy priorities in the Middle
East.”




OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   1 .



                                                UNCLASSIFIED
                                                 UNCLASSIFIED




2 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002


                                              UNCLASSIFIED
                                             UNCLASSIFIED




                                      RESULTS IN BRIEF

Generally, OIG’s conclusions (presented below in the order of the questions recited
above) are as follows:

       1. U.S. positions cannot be presented better through existing media outlets in
       the Middle East. As noted above, most of these outlets are reflective of the
       official policies and positions of their respective governments. And, those media
       generally present a negative view of the United States and its policies and posi-
       tions. Furthermore, even if Middle East media were receptive to providing a
       forum for America to make its case to the people in the region, too few Ameri-
       can broadcasters and diplomats have the language proficiency credibly to make
       that case. While efforts are underway to increase the ranks of officers who can
       speak the requisite languages, these efforts are unlikely to bear fruit any time
       soon.

       2. BBG is capable of making the vision of MERN a reality; provided, ways are
       found to reconcile the tension inherent in the applicable statutes between the
       BBG’s “professional independence and integrity” 1 and its obligation to broad-
       cast in a manner “consistent with the broad foreign policy objectives of the
       United States.” 2 The Department must avail itself fully of the opportunity
       afforded by its seat on the board of the BBG to advise BBG regularly of its
       policies, positions, and viewpoints with regard to issues related to the Middle
       East. Additionally, the idea of the Department’s providing full-time public
       diplomacy advisers to BBG, similar to political advisers provided by the Depart-
       ment to unified theater military commanders, should be considered, to provide a
       daily point of contact as to such policies, positions, and viewpoints.

       3. As both a surrogate broadcaster (i.e., one that broadcasts about the coun-
       tries in the region) and one that broadcasts about America, MERN can function
       within VOA’s organizational framework. Such programming is not prohibited by
       law. Moreover, VOA, which primarily broadcasts about America, already does
       some surrogate broadcasting of its own in Africa. And, to the extent that
       MERN ultimately expands to television, VOA, which does it own television
       broadcasting, can serve as a model.

1
    22 U.S.C. 6204 (d).
2
    22 U.S.C. 6202 (a)(1).

OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   3 .


                                                      UNCLASSIFIED
                                           UNCLASSIFIED



           4. MERN can remain consistent with U.S. interests if its personnel are resident
           nationals of Middle East and other Muslim countries; provided, the requisite
           editorial controls are in place. Those controls include editing of news stories by
           a bilingual American broadcaster, so that items likely to spark controversy are
           caught before transmission. Furthermore, given the dearth of American broad-
           casters who are fluent in the languages of the region, at least for the foreseeable
           future, there is no alternative to relying on resident national broadcasters.

           5. Appropriate editorial control can be implemented from Washington, as long
           as there is a pre-broadcast review by an American.

           6. BBG has responded to and supported U.S. foreign policy interests in the
           Middle East. Its language reviews and audience surveys have identified the region
           as priority. It surged broadcasts to the region following the September 11, 2001,
           terrorist attacks. But, there have been some controversial broadcasts that have
           been deemed by critics to be inconsistent with American foreign policy interests.
           And, even BBG concedes that its efforts to reach Middle East audiences have
           been largely unsuccessful. Indeed, it is this recognition that led BBG to conceive
           of MERN.

          We make recommendations to BBG and the Department, as applicable, to (1)
      develop the internal language proficiency needed credibly to articulate American
      policies and viewpoints in Middle Eastern media outlets; (2) consider placing public
      diplomacy advisers with MERN; and (3) introduce as much news programming in
      MERN broadcasts as possible as quickly as possible. BBG and the Department
      agree with the recommendations, with the exception of the recommendation for
      public diplomacy advisers, which the Department supports but BBG finds unaccept-
      able and unnecessary. Agency comments are included in Appendices H and I.




4 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002


                                                UNCLASSIFIED
                                       UNCLASSIFIED




                                PURPOSE AND SCOPE

So as to assist in the consideration of priorities in the FY 2003 budget cycle, OIG
was asked to submit its report by March 15, 2002. (OIG subsequently sought and
obtained an extension until April 1, 2002). Accordingly, this report was produced
under a tight deadline. It is not the exhaustive examination that OIG would have
conducted under normal circumstances. Because of the importance of the issues
discussed herein and widespread interest in them, OIG intends to undertake a more
detailed examination of MERN as soon after its first anniversary as possible.

    In conducting this survey, OIG held discussions with key officials, editors,
researchers, program and technical directors, and staff members of MERN, VOA,
Radio Free Europe/Radio Liberty (RFE/RL), Radio Free Asia, the International
Broadcasting Bureau (IBB), and the Office of Cuba Broadcasting (OCB). These
discussions were conducted in Washington, Miami, and Prague. Additionally, OIG
interviewed senior Department officials, including experts from the Office of the
Under Secretary for Public Diplomacy and Public Affairs, the Bureau of Near
Eastern Affairs (NEA), the Bureau of Political-Military Affairs, as well as officials
from the National Security Council (NSC) and the Office of Management and
Budget. Furthermore, key personnel of the Arabic service of the British Broadcast-
ing Corporation (BBC) were interviewed in London. A wide variety of documenta-
tion was examined as well. (See Appendix B.)

    OIG’s office of International Broadcasting Oversight (IBO) conducted this
survey in accordance with the standards of the President’s Council on Integrity and
Efficiency. Major contributors to this report were Louis A. McCall, IBO director;
Lenora Fuller, auditor-in-charge; and Matthew E. Glockner, management analyst.




OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   5 .


                                             UNCLASSIFIED
                                    UNCLASSIFIED




6 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002


                                                 UNCLASSIFIED
                                            UNCLASSIFIED




                                             BACKGROUND

BBG’s broadcast principles and standards state that U.S. international broadcasting
should have “maximum impact” to support strategic interests and to reach a signifi-
cant audience. Assessed by those standards, VOA’s Middle East broadcasts were
found by BBG to be wanting in three respects: (1) signal quality; 3 (2) relevance of
programming; and (3) lack of programming in different Arabic dialects. Further-
more, a BBG survey found that only 1-2% of people in the Middle East acknowl-
edged listening to its broadcasts.

     These findings led the BBG to conclude, even before September 11, 2001, that
efforts to reach the Middle East more broadly and effectively had to be intensified.
The idea of MERN was conceived during a February 2001 visit to the region by two
BBG board members. The visit was prompted in part by ongoing regional instabili-
ties, including the Palestinian uprising in the West Bank and the Gaza Strip.

     Because about 60 percent of the population of Middle East countries is 25 years
old or younger, MERN’s target audience is young people. (See Appendix C.) To
ensure that MERN reaches its target audience, the IBB Research Office contracted
with a major U.S. research company with extensive experience in radio, both domes-
tically and overseas. In coordination with local subcontractors in the Middle East,
the research company conducted target audience focus groups and surveys during
the months of September through November, 2001. The research company
concluded that the target audience’s interest in news is very low, and that MERN
will face “a challenge to get the listeners through the news as they no doubt wait for
the music programming to come back on.”

     Accordingly, MERN plans to begin by broadcasting for a period of time only
music of a kind popular with Arab and Muslim young people in the region. Thereaf-
ter, MERN would introduce short newscasts at regular intervals during the course of
the hour. After that, news coverage would gradually expand to encompass an even
larger portion of programming.



3
  Signal quality is a register on a scale of 1 to 5 of whether the programs are capable of being
heard by the target audiences. On the scale, 1 is nil, 2 is poor, 3 is fair, 4 is good, and 5 is excel-
lent.



OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   7 .


                                                UNCLASSIFIED
                                     UNCLASSIFIED




8 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002


                                             UNCLASSIFIED
                                             UNCLASSIFIED




                                                     FINDINGS



OBJECTIVE 1. EVALUATION OF THE PROPOSED STRUCTURE
OF MERN AND ITS PLACE, ORGANIZATIONALLY
    Q1. Would U.S. positions best be presented through strong existing
foreign commercial radio and television outlets in the Middle East media
“marketplace”?

    From interviews and research, OIG determined that there are only a small
number of commercial radio and television outlets in the Middle East. The two
principal players are the Qatari-based Al-Jazeera and the Saudi-owned Middle East
Broadcasting Centre (MBC). While Al-Jazeera is more widely known in this country,
MBC, actually, has the larger audience. On the whole, Middle East broadcasts reflect
the official policies of their governments, and broadcasts regarding America and its
policies, viewpoints, and culture are either limited or hostile.

    Furthermore, even if existing media in the region were receptive to providing a
forum for America to present its own policies, viewpoints, and culture directly to
Middle East audiences, there are only a small number of Foreign Service officers
with a level of proficiency in Arabic and the other regional languages credibly to
make America’s case. According to those we interviewed and our own research,
there are no more than ten, and perhaps as few as one person who can speak Arabic
well enough to do a live broadcast.

    A recent General Accounting Office (GAO) study noted that the Department
does not have a plan to address this shortcoming and recommended that one be put
in place.4 In any event, realistically, it will be many years, if then, before Department
diplomats can take advantage of any opportunities to use existing Middle East media
to promulgate pro-American views.


4
  Foreign Languages: Workforce Planning Could Help Address Staffing and Proficiency Short-
falls (GAO-02-514T, March 12, 2002).




OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   9 .


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED




           Recommendation 1: The Director General of the Foreign Service and Direc-
           tor of Human Resources of the Department of State should design and imple-
           ment a plan to develop the internal language proficiency needed credibly to
           articulate American policies and viewpoints in Middle Eastern media outlets.


            The Department strongly supports this recommendation and believes it now has
       programs underway to address this deficiency. BBG also agrees with this recommen-
       dation and believes it will greatly enhance the effectiveness of Department represen-
       tatives’ participation in news interviews and other programs employed by MERN.

           Q2. Is BBG capable of managing a project related to such sensitive U.S.
       policy interests without a far more careful review by the State Department
       and/or White House supervisory role?

           The concern about whether BBG alone can make MERN the vehicle for advanc-
       ing American interests in the Middle East that its supporters hope it will be arises
       principally from two VOA broadcasts following the terrorist attacks of last Septem-
       ber. The first broadcast featured a member of one of Egypt’s most violent terrorist
       groups now living in exile in London under the threat of a death sentence by Egypt’s
       courts. In that broadcast, his terrorist history was not identified. That broadcast
       drew criticism and complaints as being antithetical to American interests. Then on
       September 25, 2001, VOA broadcasted an interview with the now deposed leader of
       the Taliban, Mullah Mohammed Omar. Detractors decried the broadcast as provid-
       ing a platform to a discredited and deposed leader hostile to the United States.

           After those broadcasts, the BBG Chairman was called by the House Interna-
       tional Relations Committee to testify about them. In that testimony, the Chairman
       acknowledged that the VOA editorial review process was not without its flaws.
       Accordingly, VOA later established guidelines, in consultation with the Department
       and the NSC, designed to ensure that future broadcasts are, indeed, consistent with
       U.S. foreign policy objectives. (See Objective 2)

           While the guidelines are certainly a step in the right direction, concerns remain as
       to whether additional input is required from the Department and/or the NSC to
       ensure that the views of the United States are being effectively presented. That said,
       there is a tension in the applicable statutes between BBG’s “professional indepen-
       dence and integrity” and its obligation to broadcast in a manner “consistent with the
       broad foreign policy objectives of the United States.”



10 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002


                                                             UNCLASSIFIED
                                               UNCLASSIFIED



    There is broad agreement now, since a June 18, 1992, inter-agency decision of
the Deputies Committee (a committee of cabinet level agency Deputy Secretaries),
that editorials that purport to convey U.S. government policy require Department
approval. Disagreement arises over where the line should be drawn between the
aforementioned imperatives as regards news gathering and reporting. As long as
both provisions remain in the law, these tensions will remain.

     It is for Congress alone to decide whether this tension should be ever resolved in
favor of one imperative or another. Failing that, MERN, as a part of VOA, can
accomplish its mission; provided, the Department fully avails itself of the opportu-
nity afforded by its seat on the BBG board to advise BBG regularly of American
policies, positions, and viewpoints with regard to issues related to the Middle East.
It is statutorily required that the Secretary of State, or his designee (the Under
Secretary for Public Diplomacy and Public Affairs), “provide information and
guidance on foreign policy issues to the Board, as the Secretary may deem
appropriate.” 5

     Prior to the consolidation of the United States Information Agency (USIA) into
the Department, U.S. international broadcasters had foreign policy guidance directly
available to them on an ad hoc basis in the person of USIA Foreign Service officers
who were occasionally assigned as language service branch chiefs. In that capacity,
they provided area expertise and guidance on U.S. policy with respect to the coun-
tries covered by the service they managed.

    While the Secretary’s designated seat on the BBG board provides for foreign
policy input, the Board is a part-time one and it meets only once a month. The
foreign policy guidance given is to the Board, with no mechanism for ensuring that
this guidance is communicated to the broadcasters.

     Public diplomacy advisers need to be detailed from the Department to provide
daily guidance to MERN. These public diplomacy advisers would provide daily
guidance to MERN as to official U.S. government policy with respect to the Middle
East. To similar effect are so-called “POLADS,” political advisers serving U.S.
unified theater military commanders. The advisers at MERN would have no edito-
rial control there or at VOA; but, they would provide working level input that,
coupled with the Department’s vigorous use of its seat on the BBG, could provide
additional assurance that official views are being heard and communicated.


5
    22 U.S.C. 6205.




OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   11 .

                                                      UNCLASSIFIED
                                              UNCLASSIFIED




           MERN POLAD equivalents could be selected on the basis of requirements
       developed by BBG. BBG could select candidates based on their skills, their knowl-
       edge of the region, its culture, language(s), and their expertise in and sensitivity to
       journalistic issues. While assigned to MERN, public diplomacy advisers would
       function as members of the MERN staff, reporting directly to and receiving annual
       performance ratings from either the MERN director or the director of the Middle
       East Programming Centre (MEPC) in Dubai. Public diplomacy advisers could be an
       asset in contacts with Middle East government officials in helping to negotiate
       frequencies, locations, and the like.

           As stated earlier, Section 303(a)(1) of the U.S. International Broadcasting Act of
       1994 requires that broadcasts be “consistent with the broad foreign policy objectives
       of the United States.” As recent events have demonstrated, there needs to be a
       mechanism in place to help ensure that result. Our recommendation proposes such
       a mechanism. While the legislative history of the act indicates that the Secretary of
       State should not be involved in the “management or day-to-day decision making of
       the agency or any of its operations or programs such as international broadcasting or
       otherwise,” 6 it does not prohibit the provision of advice or assistance by the Secre-
       tary or his designees in connection with international broadcasting. Furthermore,
       the Foreign Affairs Reform and Restructuring Act makes clear that the Secretary of
       State’s authority to provide foreign policy guidance to the Board may be exercised at
       his discretion.7 We believe, then, that our recommendation stays within the bounds
       of the law.


             Recommendation 2: The Broadcasting Board of Governors should design
             and implement a program, in coordination with the Department of State, to
             place public diplomacy advisers with the Middle East Radio Network at the
             disposition of the program director in Washington, D.C., and/or the director
             of the Middle East Programming Centre in Dubai.


           BBG does not agree with this recommendation, finding it to be both unaccept-
       able and unnecessary. BBG strongly believes that the placement of political advisers
       within MERN would breach the “firewall” between broadcasters and policymakers.
       In addition, BBG believes that it already has routine yet robust contacts with the
       Department. Although the Department fully concurs with this recommendation, it
       notes the need to discuss implementation with the Board, given the Board’s concern
       about “firewall issues.”

       6
           S. REP. NO. 103-107, 103rd Cong., 2nd Sess. 356 (1993).
       7
           H.R. CONF. REP. NO. 105-825, 105th Cong., 2nd Sess. 129 (1998).


12 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002

                                                 UNCLASSIFIED
                                          UNCLASSIFIED



    OIG disagrees with the BBG position. While OIG recognizes BBG’s proper
concern about firewall issues, OIG does not believe that the advisers called for in the
recommendation would breach the firewall. Their principal activity would be to
provide MERN management with advice. They would not be involved in editing the
content of individual news stories. They would be advisers and not decision makers.
The extent of this advisory role would be carefully worked out, in consultation with
the Department, with due sensitivity for firewall considerations. Given time zone
differences between Washington, D.C. and the Middle East, OIG believes that it is
especially important that an adviser be located at the MEPC in Dubai. Assuming the
Department’s Legal Adviser agrees with the OIG position, and BBG continues to
disagree, this dispute should be referred to the Department of Justice’s Office of
Legal Counsel for an authoritative legal opinion.

   Q3. Can the VOA effectively serve as the institutional home for a network
melding both surrogate broadcasting and broadcasting about America?

    Surrogate programming is broadcasting that focuses on local/host country news
because domestic stations are not objective or balanced. OIG believes that VOA
can, indeed, house an entity, MERN, designed to be both a surrogate broadcaster
and one that focuses on the United States. First, while the VOA charter does not
explicitly authorize surrogate programming, there is no legislative or regulatory
proscription against VOA’s doing surrogate programming.

    Second, VOA, which, of course, is designed primarily to broadcast about
America, already engages in surrogate programming in Angola, Nigeria, and other
parts of Africa. From what OIG understands, VOA does so effectively.

    Third, VOA is an appropriate home for MERN to the extent that it already has
experience with television broadcasting. Within the IBB, of which VOA is a part,
there is television experience also at OCB and WorldNet.8 This is important because
MERN plans to start limited television broadcasts in late FY 2003, so as to be
competitive with the satellite TV networks that are popular in the region.

    The structure and format of MERN will be different from that of previous
VOA programming. MERN programs will have an interactive component, using
such familiar commercial formats as questions of the day, listener email, person on
the street interviews, and the like. MERN programming will feature a mix of music
by both Middle East and Western artists and will also present official U.S. policy
editorials. As such, MERN represents a new model for international broadcasting – a
hybrid of traditional VOA programming about America and local broadcast streams.

8
    OCB is the home of TV Marti. WorldNet Television is in the process of becoming VOA-TV.


OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   13 .

                                                UNCLASSIFIED
                                                 UNCLASSIFIED



           While MERN could have been established under the auspices of RFE/RL, like
       Radio Free Iraq, or as a separate grantee,9 OIG’s understanding is that MERN is to
       be a part of VOA. Moreover, establishing MERN as a grantee would not expedite
       the process of building transmission facilities. With the exception of OCB medium
       wave and television transmissions, the IBB Office of Engineering and Technical
       Services provides transmission capabilities and services to all BBG broadcast entities,
       including grantees.

            In addition, MERN, as part of IBB, will have security advantages over grantees,
       an important consideration given the threat that goes with being located in the
       region. As a broadcast entity under IBB, the U.S. direct-hire staff at MEPC in Dubai
       will be under chief of mission authority with regard to their physical security. High
       security standards set by the Department’s Bureau of Diplomatic Security must be
       met. American employees of grantees are not under chief of mission authority; they
       are employees of a private company. Especially in this post-September 11 environ-
       ment, if security concerns are an issue with MERN, making MERN a part of VOA
       will subject it to more stringent requirements, making it safer presumably.

           Moreover, it is BBG’s view—but OIG was unable to verify this owing to time
       constraints—that host country governments were more receptive to MERN’s being
       part of VOA than its being a grantee. Accordingly, it would have been difficult and
       time-consuming to have MERN operate in the region as a grantee. If doing so
       would be more difficult and time-consuming, this would undercut the principal
       advantage of the grantee structure, which is being free from Civil Service regulations
       and union rules.

            The MERN director briefs the VOA director daily. He also reports to the BBG
       at its monthly meetings. There is a model within the IBB framework that would
       provide for greater MERN autonomy without its becoming a grantee.

           OCB was likewise established as part of VOA; but, the director of OCB reports
       to the director of the IBB, not the director of VOA. Likewise here, the MERN
       director could report to the IBB director, as well as monthly to the BBG board. This
       degree of autonomy from the VOA would be consonant with MERN’s unique
       nature, while being faithful to the Congress’ organizational mandate.

           OIG encourages BBG to consider having the VOA adopt the OCB organiza-
       tional model for daily MERN operations and supervision, enabling the new radio
       network to take advantage of the VOA’s broadcasting assets while maintaining a
       degree of autonomy without the necessity of becoming a grantee.

       9
        Grantees, by charter, are required to function as surrogate or alternative home service broad-
       casters in countries where an independent press is nonexistent or struggling to survive.
14 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002

                                                       UNCLASSIFIED
                                              UNCLASSIFIED



    Q4. Can a network remain consistent with U.S. interests if its personnel
are resident nationals in Middle Eastern and other Muslim countries?

    As noted earlier, there are few Americans with the requisite language skills to
broadcast credibly to Middle East countries. Accordingly, as a practical matter,
MERN has no choice but to rely on resident Middle East nationals, at least for the
foreseeable future. Over time, as and when the Department develops more credible
speakers of Arabic and other regional languages, those personnel can supplement the
local broadcasters upon whom MERN must initially rely.

     Although MERN has no choice in this matter in the near term, using local
broadcasters is not without advantages. If properly selected, MERN broadcasters
will be well known in the applicable country or countries. They will be not just fluent
in the requisite languages, dialects, and accents; they will also be familiar with local
colloquialisms, culture, idiosyncrasies, and trends. As such, they are likely to have
credibility with and to appeal to the local audience. It should be noted, too, that
there is no legislative requirement that broadcasters be United States citizens.

     The foregoing having been said, there is no question but that there are vulner-
abilities in relying upon resident nationals to serve as MERN broadcasters. These
vulnerabilities can be mitigated by ensuring that effective editorial controls are in
place, which is the subject of the next question.

      Q5. Can editorial control be realistically implemented from Washington?

     MERN plans to station a bilingual American in Dubai who would edit all pro-
gramming there and then send it to Washington for further editing. The only
exception to additional Washington editing would be for “local” surrogate program-
ming. There will be five different streams of broadcasting to the Middle East, which
will include one stream of modern, classical Arabic and four streams of colloquial,
sub-regional Arabic dialects. (See Appendices D and E.) This sub-regional program-
ming would be edited in Dubai by the resident bilingual American; but, because of
time constraints, it might not be sent to Washington for further editing. All broad-
casts, then, will have at least one review by an American, and most will be reviewed
by two Americans before transmission.

    Although BBG advised OIG during the survey that broadcasts were to be
delayed to permit any necessary editing, BBG subsequently saw no reason to add
tape delays nor to refrain from transmitting in real time. OIG prefers that this
additional control be retained.




OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   15 .



                                                   UNCLASSIFIED
                                                  UNCLASSIFIED



          By ensuring at least one pre-broadcast review by an American, OIG believes that
       MERN can be adequately overseen and monitored by the United States government,
       though again, OIG would prefer that BBG not transmit in real time as an additional
       control.



       OBJECTIVE 2. HOW HAS BBG—AS CURRENTLY
       CONSTITUTED—RESPONDED TO AND SUPPORTED U.S.
       FOREIGN POLICY PRIORITIES IN THE MIDDLE EAST?
       BBG has certainly attempted to respond to and support U.S. foreign policy priorities
       in the Middle East, even before the creation of MERN and even before the terrorist
       attacks of last September 11.

           For example, the Language Service Review identified the Middle East as a region
       where VOA could improve its broadcasting effectiveness. In August 1999, the IBB
       issued a report titled Broadcasting into the Millennium that addressed immediate and
       long-range requirements worldwide by region for radio, television, and Internet
       transmissions. The Middle East was identified as a “global priority.” 10 A follow-up
       review in February, 2001, reconfirmed that conclusion.

           MERN was conceived in late 2000, around the time of and in response to the
       beginning of the present Palestinian uprising or “intifada” in the West Bank and the
       Gaza Strip. Of course, MERN’s very purpose is to respond to and support U.S.
       foreign policy priorities in the Middle East.

           Planning and funding for MERN intensified after the September 11 terrorist
       attacks. And, shortly after the attacks, the BBG “surged” or increased its short wave
       and medium wave radio broadcasts as well as live streamed (“real time”) program-
       ming via the Internet to 21 countries in the Middle East, and South and Central Asia
       (including Afghanistan). (See Appendix F.) And, BBG sought additional funds in
       the President’s supplemental budget request to increase its broadcast hours in Arabic,
       Farsi, Dari, Pashto, Urdu, and Uzbek.

           Although BBG has responded to and supported U.S. foreign policy priorities in
       the Middle East to date, no one, including BBG, would argue that BBG’s efforts have
       been effective. MERN’s conception and implementation is a realization of the
       inadequacy of previous efforts.

       10
          Broadcasting into the Millennium: Transmission Strategies and Outlook for the International Broadcasting
       Bureau (IBB), August 1999, see pages 9-16.

16 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002


                                                          UNCLASSIFIED
                                                UNCLASSIFIED



    BBG has acknowledged that its Arabic broadcasts “have been at the bottom tier
of effectiveness.” 11 By its own admission, BBG has been unable to meet its legisla-
tive mandate to reach effectively a substantial audience.12 Only 1-2% of the target
audience in the region acknowledges listening to BBG broadcasts. (See Appendix G.)

    Furthermore, as noted above, on occasion BBG broadcasts have, at least in the
opinion of some, not supported U.S. foreign policy priorities in the Middle East.
The broadcast of former Taliban leader Omar, and that of the Egyptian terrorist
cited above, are said by BBG’s critics to have undercut American policy by providing
a forum to our enemies.

    In testimony before the House International Relations Committee in October
2001, the BBG Chairman acknowledged that mistakes were made as VOA quickly
“ramped up coverage” after September 11. Noting that the controversial items ran
for only minutes compared to the thousands of hours of annual VOA broadcasts, he
reported that corrective actions had been taken. The journalists involved were
reassigned. Also, new journalist reporting guidelines were developed. A Quality
Control Group consisting of senior managers will now review “sensitive material.”
VOA, on a temporary basis, will also:

       •    increase “editorial control over stringer and correspondent reports;”

       •    double the airing of U.S. policy editorials;

       •    create an all news format for all services;

       •    increase analytical and background reports on terrorism and U.S. policy
            related topics;

       •    direct branch heads to exercise direct oversight of all programming, includ-
            ing correspondent reports and sensitive interviews; and

       •    seek to develop more consistency in VOA Dari, Pashto, Urdu, Uzbek, and
            Farsi language services.13

    BBG further reports that it is now relying upon outside experts to help monitor
radio broadcasts to eliminate any bias in reporting and better align itself with U.S.
foreign policy goals.

11
     Middle East Radio Network Performance Plan – FY 2003, p.2
12
     Middle East Radio Network Performance Plan, as cited.
13
  The intent of “consistency” is that the meaning and interpretation of editorials be as close to
the original English as possible, regardless of the variations possible in some languages.


OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   17 .

                                                     UNCLASSIFIED
                                             UNCLASSIFIED




18 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002


                                                      UNCLASSIFIED
                                              UNCLASSIFIED




                                            CONCLUSIONS

Our overall evaluation of MERN is that it is a worthwhile and timely initiative that
can advance U.S. foreign policy interests in the Middle East. Present efforts are
having, at best, a limited impact on improving the Middle East’s view of the United
States and its foreign policy. 14

    Although MERN began broadcasting March 23, 2002, from its FM station in
Amman, Jordan, for some period of time, it will continue to be a work in progress.
It needs, then, to be considered a pilot project that can and will evolve over time.
Because MERN is to be in a nascent stage for the foreseeable future, and because
the reporting deadline imposed was tight, OIG intends to conduct a full-scale evalua-
tion of MERN one year after its launch.

    It is critical that the BBG meet its commitment to track the listening rate for its
target audience and assess overall programming quality. OIG understands that the
BBG will also evaluate the effectiveness of MERN broadcast transmissions by
tracking signal strength as well as the number and type of FM affiliates. Verification
and validation of performance measures will be provided by entities outside of BBG,
to ensure objectivity. The Government Performance and Results Act of 1993
(GPRA) requires this kind of effort to assess the efficacy of government programs,
and OIG applauds BBG for its agreement to apply GPRA principles to MERN.
OIG’s review next year will consider, among other things, the degree to which
performance measures are met and validated.

    OIG intends also to determine whether the BBG follows through on its commit-
ment to introduce as much news and information, both about the United States and
the targeted countries themselves, as quickly as possible after launch. The BBG’s
plan to start only with popular music programming, as a means to attract the pre-
dominantly young Arab and Muslim audience, makes sense to us, and credible
research supports such an approach. But, a promising and unique opportunity to
advance U.S. foreign policy interests in this volatile and vitally important region will



14
  Gallup Poll conducted December 2001-January 2002 in Muslim countries, as reported in the
Baltimore Sun, March 21, 2002.



OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   19 .

                                                         UNCLASSIFIED
                                                      UNCLASSIFIED




       have been lost if MERN becomes only or even primarily a rock music station.
       Accordingly, BBG needs to adopt a written plan committing MERN to introducing
       as much news programming as possible as quickly as possible. OIG will assess the
       plan and MERN’s compliance when a more thorough review is conducted next year.


           Recommendation 3: The Broadcasting Board of Governors should design
           and implement a plan to introduce as much news programming in Middle East
           Radio Network broadcasts as possible as quickly as possible.


          BBG agrees with this recommendation and advises OIG that it intends to
       expand steadily the time devoted to news on MERN broadcasts.




20 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002

                                                        UNCLASSIFIED
                                             UNCLASSIFIED




                                  RECOMMENDATIONS

Recommendation 1: The Director General of the Foreign Service and Director of
  Human Resources of the Department of State should design and implement a
  plan to develop the internal language proficiency needed credibly to articulate
  American policies and viewpoints in Middle Eastern media outlets.

Recommendation 2: The Broadcasting Board of Governors should design and
  implement a program, in coordination with the Department of State, to place
  public diplomacy advisers with the Middle East Radio Network at the disposition
  of the program director in Washington, D.C., and/or the director of the Middle
  East Programming Centre in Dubai.

Recommendation 3: The Broadcasting Board of Governors should design and
  implement a plan to introduce as much news programming in Middle East Radio
  Network broadcasts as possible as quickly as possible.




OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   21 .

                                                 UNCLASSIFIED
                                              UNCLASSIFIED




22 .   OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002


                                                       UNCLASSIFIED
                                          UNCLASSIFIED




                                         ABBREVIATIONS

                          BBC            British Broadcasting Corporation
                          BBG            Broadcasting Board of Governors
                           FSO           Foreign Service Officer
                         GAO             General Accounting Office
                       GPRA              Government Performance and Results Act
                            IBB          International Broadcasting Bureau
                         MBC             Middle East Broadcasting Centre
                       MEPC              Middle East Programming Center
                      MERN               Middle East Radio Network
                         NEA             Near Eastern Affairs
                          NSC            National Security Council
                          OCB            Office of Cuba Broadcasting
                          OIG            Office of Inspector General
                         OMB             Office of Management and Budget
                    POLAD                Political Adviser
                   RFE/RL                Radio Free Europe/Radio Liberty
                          VOA            Voice of America




OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   23 .


                                         UNCLASSIFIED
                                              UNCLASSIFIED




OIG Report No. IBO-A-02-02, Survey of the Broadcasting Board of Governors’ Middle East Broadcasting Activities and Initiatives - March 2002   25 .


                                                      UNCLASSIFIED
